                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: Al2120084                                                                      Page 1 of 1



                NSF OIG received a complaint that prior work should have been cited in a paper 1
         submitted to an online database 2 . This paper discussed research related to an NSF grant.

                Because the complaint did not contain an actionable allegation of research misconduct as
         defined in NSF regulations/ we determined that the matter was best resolved by informing the
         cognizant program officer4 of the concern raised to our office.

                   Accordingly, this case is closed with no further action taken.




         4-
         3
             45 CFR689




NSF OIG Form 4 (11/02)
